No, 20-828

 

 

IN THE
Supreme Court of the United States

FEDERAL BUREAU OF INVESTIGATION, ET AL.,
Petitioner,
Uv.
YASSIR FAZAGA, ET AL.,
Respondent.

ON WRIT OF CERTIORARI TO THE UNITED STATES
CouRT OF APPEALS FOR THE NINTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1, I, Jennifer R. Cowan, a
member of the Bar of this Court, certify on this 28th day of September, 2021,
that this Brief of Amicus Curiae on behalf of James Dempsey and Sharon
Bradford Franklin in the above-captioned case contains approximately 4,570

words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d). The brief was prepared in 12-point Century Schoolbook
font.

Respectfully Submitted

LZ

NNI. R. COWAN

Counsel of Record
Debevoise & Plimpton LLP
